                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00234-125


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

    Lebanon VA Medical Center 

      Lebanon, Pennsylvania 





April 14, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                  CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                                            Glossary
                       AUD        alcohol use disorder
                       CAP        Combined Assessment Program
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       facility   Lebanon VA Medical Center
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VA         Veterans Administration
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                           CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5
	
  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
                                                             CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                                                           Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
Veterans. We conducted a site visit during the week of February 24, 2014, at the
Reading CBOC, Reading, PA, which is under the oversight of the Lebanon VA Medical
Center and Veterans Integrated Service Network (VISN) 4.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	     Fire drills are conducted at least every 12 months at the Reading CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC staff:

	     Consistently complete diagnostic assessments for patients with a positive alcohol
       screen.

	     Consistently document the offer of further treatment to patients diagnosed with
       alcohol dependence.

Medication Management. Ensure that CBOC/PCC staff:

	     Complete medication reconciliation documentation for each episode of care where
       the newly prescribed fluoroquinolone is administered, prescribed, or modified.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–17, for the full text of the Directors’ comments.) We consider
recommendations 1, 2, and 3 closed. We will follow up on the planned actions for the
open recommendations until they are completed.
 




                                                                                                                                                 
                                                                                                                 JOHN D. DAIGH, JR., M.D. 

                                                                                                                Assistant Inspector General for 

                                                                                                                   Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                                                                             i
                                      CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s Veterans receive high-quality VA health care services. As such, the CBOC
and PCC reviews are recurring evaluations of selected primary care operations that
focus on patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                                      CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Reading CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC
NM                      Areas Reviewed                                       Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every      There was no evidence of fire drills occurring at
 X
       12 months.                                        least every 12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.



VA OIG Office of Healthcare Inspections                                                                      3
                                          CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


NM               Areas Reviewed (continued)                                Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1.   We recommended that fire drills are performed every 12 months at the Reading CBOC.




VA OIG Office of Healthcare Inspections                                                               4
                                          CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD
NM                   Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
                                                          Staff did not complete diagnostic assessments
       Diagnostic assessments are completed for
 X                                                        for 4 (10 percent) of 40 patients who had
       patients with a positive alcohol screen.
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further        We did not find documentation of the offer of
 X     treatment for patients diagnosed with alcohol      further treatment for two of seven patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations
2. We recommended that CBOC and PCC staff consistently complete diagnostic assessments
for patients with a positive alcohol screen.

3. We recommended that CBOC and PCC staff consistently document the offer of further
treatment to patients diagnosed with alcohol dependence.


VA OIG Office of Healthcare Inspections                                                                   5
                                          CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones
NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 4 of 24 patient EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The facility generally met requirements. We made no recommendations.

Table 5. DWHP Proficiency
NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the PCMM.




VA OIG Office of Healthcare Inspections                                                               7
                                                                               CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                                                                  Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                Encountersd

                                 Station                   CBOC
      Location           State               Localitye                 MHg        PCh      Otheri       All       MHg        PCh      Otheri      All
                                    #                       Sizef
Camp Hill Outpatient
                          PA     595GA        Urban        Large       2,443     7,867      4,630     9,014      12,471    18,344     18,347     49,162
Clinic
York County               PA     595GE        Urban        Large       1,451     5,906      3,539     6,779      6,801     13,544     12,742     33,087
Lancaster                 PA     595GC        Urban       Mid-Size      493      4,025      1,699     4,283      2,695      9,022      6,265     17,982
Reading                   PA     595GD        Urban       Mid-Size      584      3,764      1,397     4,008      3,511      7,863      2,892     14,266
Pottsville/Fracksville    PA     595GF         Rural      Mid-Size      239      2,374        1       2,433      1,079      4,733        1       5,813




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – Mental Health Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician.

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                   8
                                     CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                               Tele-Health
             CBOC            Specialty Care Servicesk          Ancillary Servicesl
                                                                                                Servicesm
    Camp Hill Outpatient             Podiatry                      Pharmacy                 Tele Primary Care
    Clinic                          Optometry                     Social Work
                                   Endocrinology           Diabetic Retinal Screening
                                    Nephrology                 MOVE! Programn
                                   Dermatology                   Rehabilitation
                                                                    Nutrition
    York County               Anti-Coagulation Clinic            Rehabilitation             Tele Primary Care
                                    Optometry                     Social Work
                                     Podiatry                   MOVE! Program
                                  Endocrinology            Diabetic Retinal Screening
                                   Dermatology                Electrocardiography
    Lancaster                        Podiatry                 Electrocardiography           Tele Primary Care
                                    Optometry                     Social Work
                                                                MOVE! Program
    Reading                              ---                  Electrocardiography           Tele Primary Care
                                                           Diabetic Retinal Screening
                                                                  Social Work
    Pottsville/Fracksville               ---                           ---                           ---

 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                          9
                                                                                             CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                                                                                Appendix B


                                                                         PACT Compass Metrics
                                                       FY 2013 Average 3rd Next Available in PC Clinics
                                   25.0
       Average Number of Days




                                   20.0

                                   15.0

                                   10.0

                                     5.0

                                     0.0
                                                                            Camp Hill                                                         Pottsville/
                                                                                             Lancaster                     York County
                                           VHA Total     Lebanon (595)   Outpatient Clinic               Reading (595GD)                      Fracksville
                                                                                              (595GC)                        (595GE)
                                                                             (595GA)                                                           (595GF)
                                OCT FY13     14.6            13.9              13.2            12.5           14.3            15.2                1.6
                                NOV FY13     15.2            13.3              13.0            15.7           15.1            10.8                3.9
                                DEC FY13     13.8            10.9              11.9            14.5           12.4            15.5                1.6
                                JAN FY13     14.0            13.3              13.3            14.0            15.5           10.2                1.3
                                FEB FY13     14.8            13.2              13.4            10.2            12.9           11.6                2.7
                                MAR FY13     13.3             8.3               9.2            11.5            9.4             5.2                1.7
                                APR FY13     14.4            17.1              11.0            12.3            9.2            10.0                1.3
                                MAY FY13     16.0            12.3              13.2            10.1            10.3            7.4                3.5
                                JUN FY13     14.2            14.6              12.1             9.8            12.3            9.9                2.4
                                JUL FY13     14.6            12.9              15.0            19.7            8.5             7.1                1.4
                                AUG FY13     15.7            14.1              11.9             7.9            13.1            7.1                4.4
                                SEP FY13     13.4            13.1              10.7            10.1            10.7           12.3                3.3

 
    Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
    Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
    appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
    national to the division level.

    VA OIG Office of Healthcare Inspections                                                                                                                    10
                                                                                CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month
on the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                   11
                                                                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                               CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA



                                     FY 2013 2‐Day Contact Post Discharge Ratio
       100%
        90%
        80%
        70%
        60%
        50%
        40%
        30%
        20%
        10%
         0%
                                                         Camp Hill
                                                                                                              York County         Pottsville/
                   VHA Total       Lebanon (595)       Outpatient      Lancaster (595GC)   Reading (595GD)
                                                                                                                (595GE)       Fracksville (595GF)
                                                      Clinic (595GA)
     OCT FY13        52.8%             70.2%              74.1%             66.7%               45.8%            58.3%              30.0%
     NOV FY13        52.9%             77.2%              76.3%             88.9%               58.8%            76.9%              57.1%
     DEC FY13        51.5%             76.2%              70.6%             69.2%               66.7%            57.6%              37.5%
     JAN FY13        57.2%             75.9%              92.3%             80.0%               68.8%            60.9%              33.3%
     FEB FY13        60.4%             73.1%              69.0%             72.7%               61.9%            63.6%              90.0%
     MAR FY13        64.4%             81.5%              92.5%             75.0%               83.3%            52.2%              25.0%
     APR FY13        65.5%             74.1%              89.3%             72.2%               64.7%            65.7%              33.3%
     MAY FY13        66.1%             78.6%              90.5%             76.9%               72.2%            55.9%              37.5%
     JUN FY13        70.1%             72.5%              89.8%             68.4%               79.2%            57.1%              50.0%
     JUL FY13        71.1%             83.3%              91.5%             47.8%               60.0%            74.2%              20.0%
     AUG FY13        72.7%             81.9%              92.7%             87.5%               68.4%            68.6%              83.3%
     SEP FY13        68.9%             74.0%              75.7%             62.5%               81.8%            81.0%              57.1%




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric.


VA OIG Office of Healthcare Inspections                                                                                                                13
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       March 27, 2014

          From:        Interim Network Director, VISN 4 (10N/4)

       Subject: 	      CBOC and PCC Reviews of the Lebanon VA Medical
                       Center, Lebanon, PA

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

        1. 	 The recommendations made during the Office of Inspector General
         (OIG) Review and Primary Care Survey conducted Wednesday
         February 26, 2013 at the Berks County/Reading CBOC have been
         reviewed. Resolution action has been accomplished on 3 of the 4
         recommendations. A plan of action has been developed, implemented
         and will be thoroughly monitored to ensure satisfactory completion on
         the remaining finding.
        2. I would like to personally thank the OIG CBOC and PCC Survey Team
        members for their professionalism and consultative assistance
        throughout this review. Your review provides an opportunity to further
        strengthen our processes and the great care provided to our Veterans.
        3. If you have questions or require additional information, please contact
        the Quality Management Officer at 717-272-6621 ext. 4407.




VA OIG Office of Healthcare Inspections                                                     14
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                               Memorandum


           Date:       3/26/2014

          From:        Director, Lebanon VA Medical Center (595/00)

       Subject: 	      CBOC and PCC Reviews of the Lebanon VA Medical
                       Center, Lebanon, PA

             To:       Interim Network Director, VISN 4 (10N/4)

        1. 	 The recommendations made during the Office of Inspector General
         (OIG) Review and Primary Care Survey conducted Wednesday
         February 26, 2013 at the Berks County/Reading CBOC have been
         reviewed. Resolution action has been accomplished on 3 of the 4
         recommendations. A plan of action has been developed, implemented
         and will be thoroughly monitored to ensure satisfactory completion on
         the remaining finding.
        2. I would like to personally thank the OIG CBOC and PCC Survey Team
        members for their professionalism and consultative assistance
        throughout this review. Your review provides an opportunity to further
        strengthen our processes and the great care provided to our Veterans.
        3. If you have questions or require additional information, please contact
        the Quality Management Officer at 717-272-6621 ext. 4407.




VA OIG Office of Healthcare Inspections                                                     15
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that fire drills are performed every 12 months
at the Reading CBOC.

Concur

Target date for completion: 3/14/2014

Facility response: The Reading CBOC is a leased space. Previous drills were
completed by leased facility. The leased space fire drills were completed for the
business occupancy building according to requirements; however documentation did
not reflect participation by CBOC staff. Fire drills will now be conducted annually by
Lebanon VAMC Safety Department staff to ensure ongoing compliance with
documentation.

Recommendation 2. We recommended that CBOC and PCC staff consistently
complete diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: 3/26/2014

Facility response: As identified in the survey, CBOC providers completed
90% (36 of 40) diagnostic assessments for patients with positive alcohol screen. The
CBOC providers exceeded the VHA target performance measure of 62%. The
Electronic Health Record (EHR) must be refreshed after completion of part 1 of the
alcohol use screening tool, the Audit C. If it is not refreshed, it will not trigger part 2,
counseling for a positive Audit C. Staff has been educated to the importance of
refreshing the EHR with each encounter.

Recommendation 3. We recommended that CBOC and PCC staff consistently
document the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: 3/26/2014

Facility response: CBOC providers’ documentation offers of further treatment in
71% (5 of 7) of audited records for patients diagnosed with alcohol dependence. The
VHA performance goal is 62%. Upon further review to improve systems based




VA OIG Office of Healthcare Inspections                                                     16
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA


documentation, system modifications were accomplished to the clinical reminder system
to document the offer of further treatment when completing the AUDIT C reminder.

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: 6/30/2014

Facility response: As identified in the survey, CBOC providers completed medication
reconciliation 83.3% (20 of 24) which included newly prescribed fluoroquinolone. A
further data review indicated two providers were not fully completing medication
reconciliation. Additional education has been provided and additional tracers will be
completed to assure adequate performance.




VA OIG Office of Healthcare Inspections                                                     17
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Donald Braman, RN, BSN
Contributors            Terri Julian, PhD
Other                   Margie Chapin, RT (R, MRI, CT), JD, Team Leader
Contributors            Jennifer Christensen, DPM
                        Katharine Foster, RN
                        Cynthia Gallegos
                        Lin Clegg, PhD
                        Matt Frazier, MPH, MBA
                        Zhana Johnson, CPA, CFE
                        Jeff Joppie, BS
                        Melanie Oppat, MEd, LDN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     18
                                 CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Interim Network Director, VISN 4 (10N/4)
Director, Lebanon VA Medical Center (595/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr., Patrick J. Toomey
U.S. House of Representatives: Charles W. Dent, Jim Gerlach, Scott	 Perry,
 Joseph R. Pitts


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     19
                                      CBOC and PCC Reviews at Lebanon VA Medical Center, Lebanon, PA
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    20
